   Report No. D-2009-067        April 3, 2009




    Controls Over Air Force Materiel Command
Unliquidated Obligations on Department of the Air
 Force Contracts Supporting the Global War on
                      Terror
Additional Information and Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest ideas for or to request future audits, contact the Office of the Deputy Inspector
General for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703) 604-8932. Ideas
and requests can also be mailed to:

                       ODIG-AUD (ATTN: Audit Suggestions)
                       Department of Defense Inspector General
                       400 Army Navy Drive (Room 801)
                       Arlington, VA 22202-4704




Acronyms and Abbreviations
AFAA                          Air Force Audit Agency
AFB                           Air Force Base
AFCEE                         Air Force Center for Engineering and the Environment
AFMC                          Air Force Materiel Command
AFALO                         Air Force Accounting Liaison Office
AMC&R                         Accounts Maintenance Control and Reporting
DFAS                          Defense Finance and Accounting Service
FMR                           Financial Management Regulation
GWOT                          Global War on Terror
IG                            Inspector General
SIGIR                         Special Inspector General for Iraq Reconstruction
ULO                           Unliquidated Obligation
                                    INSPECTOR GENERAL
                                   DEPARTMENT OF DEFENSE
                                    400 ARMY NAVY DRIVE
                               ARLINGTON, VIRGINIA 22202-4704



                                                                                      April 3, 2009

MEMORANDUM FOR ASSISTANT SECRETARY OF THE AIR FORCE FOR FINANCIAL
                 MANAGEMENT AND COMPTROLLER
               COMMANDER, AIR FORCE MATERIEL COMMAND
               DIRECTOR, DEFENSE FINANCE AND ACCOUNTING SERVICE
               DIRECTOR, AIR FORCE ACCOUNTING AND FINANCE OFFICE


SUBJECT: Report on Controls Over Air Force Materiel Command Unliquidated Obligations on
         Department of the Air Force Contracts Supporting the Global War on Terror
         (Report No. D-2009-067)

We are providing this report for information and use. We considered management comments on
a draft of this report when preparing the final report.

Comments on the draft of this report conformed to the requirements of DoD Directive 7650.3
and left no unresolved issues. Therefore, we do not require any additional comments.

We appreciate the comiesies extended to the staff. Please direct questions to me at
(703) 601-5868.



                                            1~~&!l1~
                                            Patricia A. Marsh, CPA
                                            Assistant Inspector General
                                            Defense Business Operations
                    Report No. D-2009-067 (Project No. D2008-D000FC-0208.000)
                                           April 3, 2009

               Results in Brief: Controls Over Air Force
               Materiel Command Unliquidated Obligations
               on Department of the Air Force Contracts
               Supporting the Global War on Terror
                                                       The Director, Air Force Accounting and
What We Did                                            Finance Office should verify that the ULOs
Our audit objective was to determine whether           reported on the fund holder confirmation
the Defense Finance and Accounting Service             statements match the DFAS management
(DFAS) and the Air Force properly accounted            reports and ensure Air Force Accounting
for and de-obligated unliquidated obligations          Liaison Offices verify that the percentage of
(ULOs) on contracts supporting the Global War          ULOs validated on fund holder confirmation
on Terror. See Appendix A for a discussion of          statements correspond to tri-annual review files.
the scope and methodology and prior coverage
related to the objective.                              The Director, Air Force Accounting and
                                                       Finance Office and the Director, DFAS Denver
What We Found                                          should clarify DFAS and Air Force guidance to
DFAS Columbus and six Air Force bases                  establish one code for ULOs requiring research.
erroneously reported that they reviewed and
validated 100 percent of Air Force Materiel            The Director, DFAS Columbus should require
Command ULOs. This increased the risk of Air           the DFAS Columbus Accounts Maintenance
Force losing funds not de-obligated timely.            Control and Reporting Directorate to use
                                                       progress and management reports to confirm the
DFAS Columbus could not provide evidence that          number of ULOs reviewed and validated and
it accomplished tri-annual reviews for 31 ULOs.        ensure it supports the confirmation statements;
As a result, the Air Force has no assurance that       ensure DFAS Columbus complies with the
DFAS Columbus reviewed and validated ULOs              requirement to maintain tri-annual review
valued at $169.7 million and that the Air Force        supporting documentation and determine the
still needs the obligated funds.                       validity of 30 ULOs; and request that DFAS
                                                       Internal Review independently assess the DFAS
DFAS and Air Force internal controls were not          Columbus tri-annual review process.
effective. DFAS and the Air Force did not
provide adequate oversight of the tri-annual           Management Comments and
review process. DFAS Columbus did not                  Our Response
maintain supporting documentation of its
                                                       The Director, DFAS Columbus and the
reviews. See the findings for further details on
                                                       Director, Air Force Accounting and Finance
the material internal control weaknesses.
                                                       Office agreed with the recommendations in the
                                                       report and the comments were responsive. The
What We Recommend                                      Director, Financial Management, Air Force
The Assistant Secretary of the Air Force for           Materiel Command, although not required to
Financial Management and Comptroller should            respond, also agreed with recommendations in
de-obligate $2.7 million on 1 of 31 ULOs.              the report. See the Management Comments
                                                       section for the full text of the comments.


                                                   i
               Report No. D-2009-067 (Project No. D2008-D000FC-0208.000)
                                      April 3, 2009

Recommendations Table
Management                       Recommendations            No Additional Comments
                                 Requiring Comment          Required
Assistant Secretary of the Air                              B.2.
Force for Financial Management
and Comptroller

Director, Air Force Accounting                              A.2.a., A.2.b., A.3.
and Finance Office

Director, Defense Finance and                               A.1.a., A.1.b., A.1.c., B.1.a.,
Accounting Service Columbus                                 B.1.b.

Director, Defense Finance and                               A.3.
Accounting Service Denver




                                          ii
Table of Contents

Results in Brief                                                       i

Introduction                                                           1

       Objective                                                       1
       Background                                                      1
       Review of Internal Controls                                     2

Finding A. Air Force Tri-Annual Review Process                         5

       Recommendations, Management Comments, and Our Response          8

Finding B. Defense Finance and Accounting Service Columbus Evidence   13

       Recommendations, Management Comments, and Our Response         14

Appendices

       A. Scope and Methodology                                       17
              Prior Coverage                                          19
       B. Tri-Annual Review Process                                   21
       C. Air Force Materiel Command Unliquidated Obligations         23

Management Comments

       Defense Finance and Accounting Service Columbus Comments       25
       Air Force Finance and Accounting Office Comments               28
       Financial Management, Air Force Materiel Command Comments      31
Introduction
Objective
Our audit objective was to determine whether the Defense Finance and Accounting
Service (DFAS) and the Air Force properly accounted for and de-obligated unliquidated
obligations (ULOs) on contracts supporting the Global War on Terror (GWOT). See
Appendix A for a discussion of the scope and methodology and prior coverage related to
the objective.

Background
Following the terrorist attacks of September 11, 2001, the United States initiated military
operations to combat terrorism in the United States, Iraq, and Afghanistan. Through the
enactment of the FY 2008 Consolidated Appropriations Act on December 26, 2007,
Congress has approved approximately $700 billion since the September 11 attacks for
military operations, base security, reconstruction, foreign aid, embassy costs, and
veterans’ health care. This $700 billion covers all war-related appropriations including
supplemental appropriations, regular appropriations, and continuing resolutions. As of
September 2008, the DoD monthly obligations for GWOT averaged $10.9 billion for Iraq
and $2.7 billion for Afghanistan. The Air Force Center for Engineering and the
Environment (AFCEE) has awarded approximately $4 billion of these funds for
reconstruction projects in Iraq and Afghanistan. We reviewed Air Force Materiel
Command (AFMC) ULOs related to 17 AFCEE contracts.

Obligation Process
An obligation is the amount of an order placed, contract awarded, or service received
during an accounting period that requires future payment. It is recorded when an
authorized agent of the Federal Government enters into a legally binding agreement to
purchase specific goods or services. The recorded obligation is reduced by the amount of
payments made as bills are received. The obligated balance still owed is referred to as
the ULO balance. When all services or goods have been received and paid for, the
obligation is considered “liquidated,” and any remaining ULO balance should be
de-obligated. Funds would then be available for other uses. However, the funds can only
be obligated in the fiscal year(s) for which they are made available or used for
adjustments to or payments of existing obligations.

Tri-Annual Review Guidance
The DoD Financial Management Regulation (FMR), volume 3, chapter 8, “Standards for
Recording and Reviewing Commitments and Obligations,” June 2005, implemented a
tri-annual review process. This process requires fund holders1 and supporting accounting
offices to monitor obligations and review and validate all ULOs over three tri-annual


1
 A fund holder is the comptroller/fiscal officer of an activity or office that is issued a formal
subdivision of funds.


                                                       1
review periods for timeliness, accuracy, and completeness. To properly validate a ULO,
DFAS or the fund holder must verify that there is documentary evidence to support the
continued need for the obligation and any remaining balance. In addition, the DoD FMR
requires fund holders to maintain adequate documentation supporting those reviews for
24 months. The fund holders must also complete a signed confirmation statement that
they reviewed the accuracy and completeness of the recorded amounts.

Each Military Department is responsible for confirming to the Under Secretary of
Defense (Comptroller)/DoD Chief Financial Officer that it conducted tri-annual
obligation reviews. The Air Force chose to assign DFAS a portion of its ULO review.
DFAS Denver, in conjunction with the Air Force Accounting and Finance Office,
developed the DFAS Denver 7220.4-G, “Tri-Annual Review Program,” March 2008
(DFAS and Air Force guidance), to implement tri-annual review procedures. The DFAS
and Air Force guidance requires each of its field sites and Air Force users to complete
portions of the tri-annual review and maintain supporting documentation for 24 months
after the tri-annual review period. These reviews provide the basis for certifying the
percentage of ULOs reviewed and validated on DFAS and Air Force confirmation
statements. These statements must confirm that DFAS or the Air Force fund holders
matched validated obligations to a hardcopy or an electronic source document. In the
event that the Air Force fund holder does not provide a confirmation statement
supporting a 100 percent review and validation, the fund holder must provide a full
explanation and any corrective actions taken.

Tri-Annual Review Process
The Air Force’s tri-annual review process begins when DFAS Denver downloads ULO
information from the General Accounting and Finance System2 and provides this
information to the DFAS Columbus Account Maintenance Control and Reporting
(AMC&R) Directorate. The DFAS Columbus AMC&R Directorate creates two files,
one containing contractual obligations reviewed by DFAS Columbus users and one
containing miscellaneous obligations reviewed by the Air Force fund holders. DFAS
Columbus users and Air Force fund holders must review and properly code the ULOs to
describe the status of the ULO review.3 See Appendix B for additional information on
the DFAS and Air Force responsibilities for reviewing these ULOs.

Review of Internal Controls
We determined that material internal control weaknesses in the Air Force tri-annual
review process existed as defined by DoD Instruction 5010.40, “Managers’ Internal
Control (MIC) Program Procedures,” January 4, 2006. Neither DFAS Columbus nor the
Air Force Accounting Liaison Offices (AFALOs) performed adequate oversight of the
tri-annual review reporting process for ULO review and validation. In addition, DFAS



2
  The General Accounting and Finance System is the primary Air Force financial accounting system
maintaining official accounting records.
3
  Air Force fund holders must use the standard base codes established within the DFAS guidance to identify
the obligation status. Obligations can be valid, invalid, no longer needed, or require additional action.


                                                    2
Columbus did not maintain supporting documentation of its reviews. Implementing
recommendations A.1., A.2., and B.1.a. will improve the DFAS Columbus and Air Force
tri-annual review process. We will provide a copy of the final report to the senior DFAS
and Department of the Air Force officials responsible for internal controls.




                                           3
4
Finding A. Air Force Tri-Annual Review
Process
DFAS and six Air Force Bases (AFBs) erroneously reported the 100 percent review and
validation of ULOs during the FY 2007 third period tri-annual review. DFAS Columbus
and the AFALOs did not provide adequate oversight for their portions of the Air Force
tri-annual review process. DFAS Columbus reviewed or validated only 37 percent
(47,577 of 129,666) of its ULOs and six of seven AFBs did not validate all of its ULOs.
In addition, DFAS and Air Force guidance for coding validated ULOs is conflicting. As
a result, the Air Force is at an increased risk of losing funds that are not de-obligated in a
timely manner.

Tri-Annual Review
We chose to review the tri-annual review process used by DFAS and the Air Force. This
was limited to those activities involved in the AFMC tri-annual review process. AFMC,
an Air Force major command at Wright-Patterson AFB, Ohio, allocates funds to nine
fund holders at seven AFBs for the 17 GWOT contracts. DFAS Columbus and the nine
Air Force fund holders each conducted portions of the AFMC tri-annual reviews.
Table 1 identifies the DFAS operating location, AFB and AFALO locations, and Air
Force fund holder locations responsible for reviewing the ULOs

             Table 1. DFAS and Air Force Fund Holder Locations
DFAS Operating        Air Force
    Location        Base/AFALO                     Fund Holder
Columbus         Arnold            Arnold Engineering Development Center
Columbus         Brooks City       AFCEE
Columbus         Edwards           95th Air Base Wing
Columbus         Hill              75th Air Base Wing
Columbus         Hill              Ogden-Air Logistics Center
Columbus         Kirtland          377th Air Base Wing
Columbus         Robins            Warner Robins Air Logistics Center
Columbus         Wright-Patterson AFMC
Columbus         Wright-Patterson Aeronautical Systems Center


Management Reports
Following each tri-annual review period, the DFAS Columbus AMC&R Directorate has
the ability to generate progress and management reports from the Tri-Annual Review
Program database to determine the status of ULOs reviewed and validated by DFAS
Columbus users and Air Force fund holders. DFAS Columbus representatives, Air Force
fund holders, and AFALOs can use reports prepared from this system. Two reports
available for their use include the “Percent Complete by Site Code by Operating Location
Code” (DFAS Progress Status Report) and the “Total Base Lines not Receiving Air Force


                                              5
Response” (Tri-Annual Review Results). According to DFAS and Air Force guidance,
the DFAS Progress Status Report indicates the percentage of DFAS ULOs reviewed and
validated. The Tri-Annual Review Results indicates the total number of ULOs not
reviewed by the Air Force fund holders.

DFAS Reporting and Oversight
DFAS Columbus erroneously reported to the Air Force that it had reviewed and validated
100 percent of the ULOs. However, DFAS Columbus did not verify that the percentage
of ULOs reported as reviewed and validated on the confirmation statements agreed with
the DFAS Progress Status Report. The Director, DFAS Columbus AMC&R Directorate
prepared confirmation statements for the FY 2007 third period tri-annual review and
provided those statements to the AFALOs. Each statement specified that DFAS
Columbus performed a "100 percent review and validation" of its ULOs. These
statements did not match the DFAS Progress Status Report, which indicated that DFAS
Columbus did not review or validate 63 percent (82,089 of 129,666) of its ULOs.

DFAS Columbus representatives could not explain why the FY 2007 confirmation
statement did not match the status report because the employee who prepared the
statement was no longer in that position. DFAS Columbus representatives told us that
they had improved the FY 2008 process. However, the FY 2008 third period tri-annual
review status report showed that DFAS Columbus did not review or validate 34 percent
(30,564 of 89,370) of its ULOs. DFAS Columbus representatives told us that less than
100 percent review and validation occurred for FY 2008, but they had certified
100 percent on their confirmation statements. The Director, DFAS Columbus should
take appropriate action to prevent the erroneous certification of ULO reviews. For future
review periods, DFAS Columbus needs to verify the accuracy of its signed confirmation
statements to the percentage reviewed on the DFAS Progress Status Report.

Air Force Tri-Annual Review Reporting and Oversight
Six of the seven AFBs reporting FY 2007 third period tri-annual review results to AFMC
erroneously reported 100 percent review and validation of its ULOs. The erroneous
reporting occurred because the AFALOs did not provide adequate oversight of the Air
Force fund holder tri-annual review process. The DFAS and Air Force guidance states
that the AFALO is responsible for ensuring Air Force fund holders accurately report
ULOs that require additional research. In addition, DoD FMR, volume 3, chapter 8
requires the confirmation statements to identify why a fund holder was unable to
complete the review. Fund holder confirmation statements at the six AFBs indicated a
100 percent review and validation. However, when interviewed, officials at the six AFBs
indicated that some ULOs still required research to determine validity at the end of the
review period. The officials reported ULOs not validated in the remarks section of their
review file. The AFB officials did not accurately disclose ULOs not validated on their
confirmation statements and erroneously certified to a 100 percent review. The Director,
Air Force Accounting and Finance Office should take appropriate action to stop the
erroneous certification of ULO reviews. For future review periods, the AFALOs should
identify and report the discrepancy between ULOs not validated as reported by the fund
holders and the fund holder confirmation statements.


                                            6
DFAS and Air Force guidance provided conflicting definitions for codes used to identify
obligations as not validated and requiring additional research. Chapter 6 of the DFAS
and Air Force guidance states that fund holders should use code R to identify valid
obligations. However, Chapter 7 of that same guidance states to use code R to identify
when research on a ULO is on-going and de-obligation of the funds cannot occur until
research is complete. In addition, Chapter 5 states that fund holders code ULOs requiring
additional research at the end of the review period with code W in the review file.
Because ULOs requiring additional research can be coded with either the R or W codes,
fund holders at the seven bases interpreted the DFAS and Air Force guidance differently.
As a result, two fund holders used code W and seven fund holders used code R. The
inconsistent use of codes did not allow the Air Force to accurately report the number of
ULOs validated. DFAS Denver and the Air Force Finance and Accounting Office need
to establish one code for ULOs requiring additional research.

Conclusion
Because of DFAS and Air Force erroneous reporting, the Air Force lacked the necessary
information to make informed decisions related to the use of Air Force funds. Erroneous
reporting could increase the risk that funds are unavailable for other Air Force needs
because the funds may not be timely identified for de-obligation. The erroneous
reporting could also lead to an inaccurate conclusion that a continued need still exists for
all ULO amounts. DFAS Columbus and the AFALOs need to conduct additional
oversight to ensure that confirmation statements accurately reflect the status of Air Force
ULOs. In addition, DFAS Columbus and the AFALOs need to use available progress
and management reports, like the DFAS Progress Status Report and the Tri-Annual
Review Results, to verify the number of ULOs reviewed and validated corresponds to the
number of ULOs reviewed on the confirmation statements. DFAS and the Air Force can
also improve its process by establishing one code for ULOs requiring research. DFAS
and the Air Force should take action to prevent the erroneous certification of ULO
reviews.

Management Actions
During the audit, the Director, DFAS Columbus agreed with our conclusions and initiated
actions establishing the use of the DFAS Progress Status Reports to identify the status of
the tri-annual reviews. The Director also indicated that employees would be required to
attend training to improve the tri-annual review process. In addition, the Director plans
to request an independent assessment of DFAS Columbus’ FY 2009 first period
tri-annual review to determine if the problems with supporting documentation were
resolved because of DFAS Columbus’ actions.




                                             7
Recommendations, Management Comments, and Our
Response
A.1. We recommend that the Director, Defense Finance and Accounting Service
Columbus:

      a. Require the Defense Finance and Accounting Service Columbus Accounts
Maintenance Control and Reporting Directorate to use the progress and
management reports when confirming the number of unliquidated obligations
reviewed and validated.

Director, Defense Finance and Accounting Service Columbus
Comments
The Director, Defense Finance and Accounting Service Columbus agreed and stated that
beginning with the first tri-annual review period of FY 2009, his office is using the
progress reports to confirm the number of unliquidated obligations reviewed and
validated.

Our Response
The Director, Defense Finance and Accounting Service Columbus comments are
responsive and conform to requirements; no additional comments are needed.

       b. Verify that the Defense Finance and Accounting Service Columbus
confirmation statements accurately report the review and validation of unliquidated
obligations by comparing the confirmation statements to the Defense Finance and
Accounting Service management reports.

Director, Defense Finance and Accounting Service Columbus
Comments
The Director, Defense Finance and Accounting Service Columbus agreed and stated that
his office made changes to modify the confirmation statements so they accurately reflect
the number of lines that have been reviewed and validated as indicated in a specified
progress report.

Our Response
The Director, Defense Finance and Accounting Service Columbus comments are
responsive and conform to requirements; no additional comments are needed.

       c. Request the Defense Finance and Accounting Service Headquarters
Internal Review perform an independent assessment of the current Defense Finance
and Accounting Service Columbus tri-annual review process.




                                            8
Director, Defense Finance and Accounting Service Columbus
Comments
The Director, Defense Finance and Accounting Service Columbus agreed and requested
that Internal Review conduct a review of the Defense Finance and Accounting Service
tri-annual review process. Internal Review announced this review on January 12, 2009.

Our Response
The Director, Defense Finance and Accounting Service Columbus comments are
responsive and conform to requirements; no additional comments are needed.

A.2. We recommend that the Director, Air Force Accounting and Finance Office:

       a. Verify that Air Force fund holder confirmation statements accurately
report fund holder review and validation of unliquidated obligations and match the
Defense Finance and Accounting Service management reports.

Director, Air Force Accounting and Finance Office Comments
The Director, Air Force Accounting and Finance Office agreed with the intent of the
recommendation and plans to work with the Directors of the Defense Finance and
Accounting Service Denver and Columbus to modify the existing Tri-Annual program.
This modification will provide management reports to the Air Force before the Air Force
provides confirmation statements to the Office of the Secretary of Defense. The
modification will be implemented by January 2010.

Our Response
The Director, Air Force Accounting and Finance Office comments are responsive and
conform to requirements; no additional comments are needed.

Director, Financial Management, Air Force Materiel Command
Comments
Although not required to comment, the Director, Financial Management, Air Force
Materiel Command stated that the Defense Finance and Accounting Service and Air
Force Accounting and Finance Office must establish one code for identifying which
unliquidated obligations require additional research. The Air Force Materiel Command
will then be able to track open obligations “coded as needing research.”

Our Response
We appreciate the comments from the Director, Financial Management, Air Force
Materiel Command and commend the office for planned actions.

      b. Ensure Air Force Accounting Liaison Offices follow DoD Financial
Management Regulation 7000.14R, volume 3, chapter 8 by verifying that the
percentage of unliquidated obligations validated on the fund holder confirmation




                                           9
statements correspond with the total number of unliquidated obligations validated
in the fund holder tri-annual review files.

Director, Air Force Accounting and Finance Office Comments
The Director, Air Force Accounting and Finance Office agreed with the intent of the
recommendation and is deploying a tool to assist the Accounting Liaison Office with the
daily management of the open document listing. This tool will enhance the distribution
and tracking of lines reviewed during specific Tri-Annual periods, the visibility of fund
holder responses, and the transfer of data between the base and their servicing Defense
Finance and Accounting Service field site. The Air Force Accounting and Finance Office
will deploy the management tool by October 2009.

Our Response
The Director, Air Force Accounting and Finance Office comments are responsive and
conform to requirements; no additional comments are needed.

Director, Financial Management, Air Force Materiel Command
Comments
Although not required to comment, the Director, Financial Management, Air Force
Materiel Command stated that the Air Force Materiel Command requires the Accounting
Liaison Office to accomplish a 100 percent review and validation of the Tri-Annual
review data. To ensure the 100 percent review is accomplished, the Accounting Liaison
Offices must provide an explanation of why the review was not completed and identify
further actions to be taken. Air Force Materiel Command personnel will follow up on the
explanations provided by the Accounting Liaison Offices.

Our Response
We appreciate the comments from the Director, Financial Management, Air Force
Materiel Command and commend the office for actions taken.

A.3. We recommend that the Director, Air Force Accounting and Finance Office
and the Director, Defense Finance and Accounting Service Denver clarify the
Defense Finance and Accounting Service Denver 7220.4-G to establish one code for
unliquidated obligations requiring additional research.

Director, Air Force Accounting and Finance Office
The Director, Air Force Accounting and Finance Office agreed and will reassess the
codes used to identify additional research required for unliquidated obligations and
modify the regulation as necessary. The Air Force Accounting and Finance Office will
assess and modify the regulation by January 2010.

Director, Defense Finance and Accounting Service Denver
Comments
The Director, Defense Finance and Accounting Service Columbus commented on behalf
of the Director, Defense Finance and Accounting Service Denver. The Director, Defense


                                           10
Finance and Accounting Service Columbus agreed with the recommendation and stated
that the Director, Air Force Accounting and Finance Office and the Director, Defense
Finance and Accounting Service Denver will reassess the codes used to identify
additional research for unliquidated obligations and modify the regulation as necessary.
The offices will assess and modify the regulation by April 2010.

Our Response
The Director, Air Force Accounting and Finance Office and Director, Defense Finance
and Accounting Service Columbus comments are responsive and conform to
requirements; no additional comments are needed.




                                           11
12
Finding B. Defense Finance and Accounting
Service Columbus Evidence
DFAS Columbus could not provide the required evidence that they performed the
tri-annual reviews for 31 Air Force ULOs. DFAS Columbus did not maintain supporting
documentation of its review as required by DoD FMR and DFAS and Air Force
guidance. As a result, the Air Force has no assurance that DFAS Columbus reviewed and
validated ULOs valued at $169.7 million and that the Air Force still needs the obligated
funds.

Unliquidated Obligation Reviews
DFAS Denver and the Assistant Secretary of the Air Force for Financial Management
and Comptroller agreed that DFAS field sites would complete the contractual portion of
the Air Force ULO tri-annual review. We selected 31 AFMC ULOs related to the
17 AFCEE contracts supporting GWOT to review. DFAS Columbus was responsible for
reviewing the validity of all 31 selected contractual ULOs in the FY 2008 first period
tri-annual review.

DFAS Columbus Evidence
DFAS Columbus did not provide the required evidence that they accomplished the
FY 2008 first period tri-annual review for the 31 ULOs. A DFAS Columbus employee
stated that employees either did not maintain the hard-copy documentation or temporarily
misplaced the documentation, but had reviewed the 31 ULOs during the FY 2008 first
period tri-annual review. The DoD FMR, and DFAS and Air Force guidance, require
DFAS users and fund holders to maintain adequate supporting documentation for the
24-month period following each review. This allows independent organizations to verify
personnel properly completed the reviews and provides the Air Force assurance that
unliquidated funds are still needed. The lack of supporting documentation did not allow
for an assessment of the performance or completeness of the DFAS Columbus ULO
review. DFAS Columbus should maintain supporting documentation of their reviews.

Air Force Fund Holder Evidence and Our Review
Because DFAS Columbus could not provide verification that they reviewed and validated
the 31 ULOs, to conduct our independent review we requested supporting documentation
from the Air Force fund holders. As of October 28, 2008, the fund holders were able to
provide adequate supporting documentation for 6 ULOs, but could not provide adequate
supporting documentation for 24 ULOs. The remaining one ULO, valued at $2.7 million,
is no longer valid. Table 2 identifies whether a valid need exists for the 31 ULOs based
on our review of the supporting documentation.




                                          13
                        Table 2. Valid Need for the 31 ULOs
   Number of ULOs              Adequacy of ULOs           Balance as of 9/30/07
          6                           Valid                 $ 7,137,390.36
        24                         Unknown                  $159,507,001.44
          1                          Invalid                $ 3,031,246.00
        31                                                  $169,675,637.80

For the invalid ULO, AFCEE awarded a delivery order on September 8, 2007, that
obligated approximately $3 million of Operation and Maintenance funds. The 95th Air
Base Wing at Edwards AFB provided these funds for an environmental restoration
project. As of October 2008, the agencies involved have not signed the environmental
agreement, have not started project design or construction, and made only minimal
payments to the contractor. Of the approximately $3 million originally obligated,
$2.7 million remains obligated despite the lack of need for the funds in FY 2007. Based
on our review and identification of an invalid ULO, DFAS Columbus should confirm our
conclusion that the six ULOs are still valid and determine the validity of the remaining
24 ULOs. See Appendix C for a list of the 30 ULOs.

Conclusion
The Air Force had no assurance that DFAS Columbus adequately reviewed and validated
ULOs valued at $169.7 million and that a continued need still exists for the funds.
Because DFAS Columbus could not verify that they performed a review of the 31 ULOs
and did not retain the required supporting documentation, the Air Force and the Under
Secretary of Defense (Comptroller)/DoD Chief Financial Officer did not have full
assurance that the 31 ULOs were valid and correct. DFAS Columbus representatives
may have identified the $2.7 million in unnecessary ULO balances if they had followed
the requirements to properly review the ULOs and maintain adequate supporting
documentation. DFAS Columbus needs to ensure that tri-annual reviews are completed
and it maintains supporting documentation in accordance with established laws and
regulations.


Recommendations, Management Comments, and Our
Response
B.1. We recommend that the Director, Defense Finance and Accounting Service
Columbus:

      a. Establish a plan to ensure Defense Finance and Accounting Service
Columbus maintains supporting documentation for 24 months following a
completed tri-annual review as required by the DoD Financial Management
Regulation, volume 3, chapter 8 and the Defense Finance and Accounting Service
Denver 7220.4-G.




                                           14
Director, Defense Finance and Accounting Service Columbus
Comments
The Director, Defense Finance and Accounting Service Columbus agreed and stated that
his office will develop a standard process for reviewing and validating unliquidated
obligation balances in accordance with the Defense Finance and Accounting Service
Denver 7220.4-G. The process will identify information needed to be reviewed for the
tri-annual review, information to be used in creating a review package, and requirements
for maintaining supporting documentation. Defense Finance and Accounting Service
Columbus will develop and implement the process by August 3, 2009, and will validate
the process by October 1, 2009, to ensure it is in place and working.

Our Response
The Director, Defense Finance and Accounting Service Columbus comments are
responsive and conform to requirements; no additional comments are needed.

       b. Require the Defense Finance and Accounting Service Columbus to
determine the validity of the 30 unliquidated obligations and take appropriate
action to de-obligate any unliquidated obligations identified as invalid and provide
us the results.

Director, Defense Finance and Accounting Service Columbus
Comments
The Director, Defense Finance and Accounting Service Columbus agreed and stated
his office reviewed the 30 unliquidated obligations and provided the supporting
documentation for the review to the DoD Inspector General’s Office on
February 24, 2009.

Our Response
The Director, Defense Finance and Accounting Service Columbus comments are
responsive and conform to requirements; no additional comments are needed.

B.2. We recommend that the Assistant Secretary of the Air Force for Financial
Management and Comptroller de-obligate $2.7 million in funds on contract
FA8903-04-D-8671, delivery order 0058, that are not valid.

Assistant Secretary of the Air Force for Financial Management
and Comptroller Comments
The Director, Air Force Accounting and Finance Office commented on behalf of the
Assistant Secretary of the Air Force for Financial Management and Comptroller. The
Director agreed with the recommendation and stated that the Air Force Materiel
Command Financial Management will be directed to review the delivery order and take
appropriate action based on the documented review. The Air Force Materiel Command
Financial Management will review the order by June 2009.




                                           15
Our Response
The Director, Air Force Accounting and Finance Office comments are responsive and
conform to requirements; no additional comments are needed.




                                         16
Appendix A. Scope and Methodology
We conducted this performance audit from June 2008 through January 2009 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objective.
We believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objective.

The audit focused on Department of the Air Force ULOs for contracts supporting
GWOT. We reviewed a Federal Procurement Data System-Next Generation list of the
100 highest-dollar value contracts for FY 2004 through FY 2006 where the place of
performance was either Iraq or Afghanistan. We reviewed these contracts to determine
the activities that awarded the highest dollar value of funds on contracts supporting
GWOT. We determined that the Department of the Air Force awarded 20 of the 100
highest-dollar value contracts, and AFCEE at Brooks City Base, Texas, awarded 17 of
those 20. The table shows the Air Force contracts and obligated amounts from FY 2004
through FY 2007 included in our review:

                       AFCEE Contracts Supporting GWOT
                      Contract Number       Obligated Amount
              1.      FA890304D8669               $ 423,573,985.54
              2.      FA890304D8670                  241,701,296.11
              3.      FA890304D8671                  169,307,728.20
              4.      FA890304D8672                  795,659,644.58
              5.      FA890304D8676                  221,985,688.54
              6.      FA890304D8677                  375,351,442.05
              7.      FA890304D8678                  287,467,544.69
              8.      FA890304D8680                  184,848,989.00
              9.      FA890304D8681                  497,765,293.67
              10.     FA890304D8683                  160,837,357.70
              11.     FA890304D8689                  151,062,403.57
              12.     FA890304D8690                  314,266,123.00
              13.     FA890304D8694                  135,516,898.00
              14.     FA890306D8511                  435,653,039.19
              15.     FA890306D8513                  243,437,446.00
              16.     FA890306D8519                  208,265,319.37
              17.     FA890306D8520                  245,880,938.00
                           Total:                 $5,092,581,137.21

DFAS Columbus provided the universe of Air Force ULO balances for FY 2004 through
FY 2007 related to the 17 contracts from the General Accounting and Finance System.
This universe contained 538 ULOs totaling approximately $369 million. We


                                           17
judgmentally selected ULOs greater than $100,000 and selected AFMC as the Major
Command. AFMC had the highest dollar value of ULO balances. This sample
encompassed 31 ULOs valued at approximately $169.7 million.

To accomplish the audit objectives, we met with the following offices and reviewed the
following data:
    • We accessed the Electronic Document Access System and the Federal
       Procurement Data System-Next Generation to download contracts, orders, and
       modifications related to our universe and sample.
    • We interviewed representatives from the Under Secretary of Defense
       (Comptroller)/Chief Financial Officer; Assistant Secretary of the Air Force for
       Financial Management and Comptroller; DFAS Columbus; DFAS Denver; DFAS
       Indianapolis; AFCEE; AFMC; 377th Air Base Wing at Kirtland AFB; Arnold
       Engineering Development Center at Arnold AFB; 75th Air Base Wing at Hill
       AFB; Ogden-Air Logistics Center at Hill AFB; Warner Robins Air Logistics
       Center at Robins AFB; and 95th Air Base Wing at Edwards AFB. During these
       interviews, we identified the policies and procedures in place for management
       controls over ULOs and documented the tri-annual review process.
    • We reviewed financial reports to identify the amounts and status of ULOs on the
       17 AFCEE contracts.
    • We reviewed tri-annual review files, contract delivery orders, contract
       modifications, invoices, vouchers, transaction history reports, and a contract
       disbursement history report to determine whether the 31 ULOs were included
       within the tri-annual reviews and whether the ULO amounts were valid.
    • We reviewed applicable laws and regulations, including the DoD FMR and the
       DFAS Denver 7220.4-G. We reviewed these to determine the procedures for
       performing tri-annual reviews and to identify supporting documentation
       requirements.

Use of Computer-Processed Data
To perform this audit, we used data that originated in the General Accounting and
Finance System. The General Accounting and Finance System is the official Air Force
financial accounting system. We used the data only to determine the sample of ULOs for
our review. However, to determine data validity of our 31 ULO sample amounts, we
compared the system data to source documents such as contract delivery orders, contract
modifications, invoices, vouchers, and contract disbursement history reports. This
assessment indicated the data was sufficiently reliable to accurately reflect the recorded
obligations and disbursement amounts for the purpose of our review.




                                           18
Prior Coverage
During the last five years, the DoD Inspector General (IG), Special Inspector General for
Iraq Reconstruction (SIGIR), and the Air Force Audit Agency (AFAA) have issued eight
reports discussing topics related to unliquidated obligations and tri-annual reviews.
Unrestricted DoD IG reports can be accessed over the Internet at
http://www.dodig.mil/audit/reports. Unrestricted SIGIR reports can be accessed at
http://www.sigir.mil. Unrestricted AFAA reports can be accessed at
http://www.afaa.hq.af.mil.

DoD IG
DoD IG Report No. D-2008-026, “Management of the Iraq Security Forces Fund in
Southwest Asia – Phase III,” November 30, 2007

DoD IG Report No. D-2008-027, “Air Force Use of Global War on Terrorism
Supplemental Funding Provided for Procurement and Research, Development, Test, and
Evaluation,” November 21, 2007

DoD IG Report No. D-2006-085, “Vendor Pay Disbursement Cycle, Air Force General
Fund: Funds Control,” May 15, 2006

SIGIR
SIGIR Report No. 07-011, “Controls Over Unliquidated Obligations in the Iraq Relief
and Reconstruction Fund,” October 23, 2007

AFAA
AFAA Report No. F2008-0007-FC2000, “Foreign Military Sales Unliquidated
Obligations,” April 29, 2008

AFAA Report No. F2008-0001-FB3000, “Air Force General Fund Tri-Annual Review
Process,” April 28, 2008

AFAA Report No. F2005-0011-FB1000, “Global War on Terrorism Funds
Management,” June 20, 2005

AFFA Report No. F2005-0010-FB1000, “Air Force Reserve Unliquidated Obligations,”
June 17, 2005




                                           19
20
Appendix B. Tri-Annual Review Process
      DFAS Denver downloads ULO data from the General Accounting and
      Finance System and provides the data to the DFAS Columbus AMC&R.


    DFAS Columbus AMC&R creates two files. DFAS Columbus users review
    contractual ULOs and AFB fund holders review miscellaneous ULOs.


                                                   Each AFB AFALO receives the
                                                   miscellaneous ULO file and
                                                   provides fund holders their
                                                   respective ULOs to review.

DFAS Columbus users review
contractual ULOs for accuracy and                  AFB fund holders review the
validation and begin coding the ULOs.              miscellaneous ULOs for
DFAS Columbus users code ULOs as                   accuracy and validation and
valid, out of balance, needing additional          code the ULOs. Once the
supporting documentation, or dormant.              review is complete, the AFALO
                                                   sends the file back to DFAS
                                                   Columbus AMC&R.


After DFAS Columbus users initially                AFB fund holders
code the ULOs, DFAS Columbus                       receive the additional
AMC&R creates an additional file of                file, review and validate
dormant ULOs or ULOs requiring                     these ULOs, and the
additional supporting documentation.               AFALO sends the file
DFAS Columbus AMC&R sends this                     back to DFAS
to the AFALO for review and                        Columbus AMC&R.
validation.


    DFAS Columbus AMC&R receives the ULO files and updates the database.


              DFAS Columbus AMC&R sends confirmation letters to
              each AFALO certifying their review and validation.


              AFB fund holders send confirmation letters to Air Force
              Major Commands certifying their review and validation.



                                            21
22
Appendix C. Air Force Materiel Command
Unliquidated Obligations
                             Adequacy of     ULO Balance as of
           Document Number      ULOs               9/30/07
1    FA890304D86700221AAX    Unknown       $    150,496.92
2    FA890304D86700221ABX    Unknown            117,053.15
3    FA890304D86700221ACX    Unknown            300,932.53
4    FA890304D86700286AAX    Valid              884,173.04
5    FA890304D86710053AAX    Unknown          1,233,738.82
6    FA890304D86780131 X     Unknown            162,085.41
7    FA890304D86700248AAX    Unknown            369,362.72
8    FA890304D86700255AAX    Unknown          2,985,507.38
9    FA890304D86700265AAX    Unknown          1,243,381.17
10   FA890304D86700265ABX    Unknown            133,869.16
11   FA890304D86710060AAX    Unknown          2,136,641.00
12   FA890304D86760111AAX    Unknown            785,460.00
13   FA890304D86760138AAX    Unknown             466,947.87
14   FA890304D86720040AA     Unknown             910,052.46
15   FA890306D85110018       Unknown             455,980.50
16   FA890306D85110018 X     Unknown         38,546,056.46
17   FA890306D85130002 X     Unknown             626,699.00
18   FA890306D85130002 X     Unknown             923,300.00
19   FA890306D85130002 X     Unknown         15,894,475.67
20   FA890306D85130010       Unknown             949,154.00
21   FA890306D85130010       Unknown         35,796,926.99
22   FA890306D85190012       Unknown         21,779,145.08
23   FA890306D85200002       Unknown         10,905,325.39
24   FA890306D85200008 X     Unknown         10,819,879.76
25   FA890306D85200013AA     Unknown         11,814,530.00
26   FA890304D86700256AA     Valid               596,926.00
27   FA890304D86940009AB     Valid               114,804.00
28   FA890304D86710054AAX    Valid               150,762.87
29   FA890304D86890094AAX    Valid               403,844.45
30   FA890306D85130014       Valid             4,986,880.00
      Total                                $166,644,391.80




                              23
24
Defense Finance and Accounting Service Columbus
Comments




                  Click to add JPEG file




                                 25
Click to add JPEG file




               26
Click to add JPEG file




               27
Air Force Accounting and Finance Office Comments




                  Click to add JPEG file




                                 28
Click to add JPEG file




               29
Click to add JPEG file




               30
Air Force Materiel Command Comments




                  Click to add JPEG file




                                 31
Click to add JPEG file




               32
